HHS/OIG-Audit--"Review of the Adequacy of State Procedures for the Oversight of Douglas House and Youth Continuum, Inc., (A-01-00-02504)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Adequacy of State Procedures for the Oversight of Douglas House and Youth Continuum, Inc.," (A-01-00-02504)
January 16, 2001
Complete
Text of Report is available in PDF format (1.88 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out weaknesses in Connecticut's licensing and monitoring of child care facilities. The State's
inspection and reporting process needs improvement, especially in the areas of performing quarterly visits required by
State law, reporting results, and documenting supervisory reviews. In one case a facility was inspected only four times
from October 1995 to October 1999, when 17 inspections should have been performed. We noted instances where inspectors
reported that certain licensing requirements had been met when the documented evidence suggested otherwise. In other cases
operating licenses were issued and reissued to certain facilities in spite of serious deficiencies identified by license
inspectors in current and previous inspections. Recommendations call for improvements the State needs to take in its licensing
and oversight responsibilities. The State concurred and is in the process of taking corrective actions.